BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief for Council of Islamic Schools in North
America, Partnership for Inner-City Education, and
Union of Orthodox Jewish Congregations of America as
Amici Curiae in Support of Petitioners in 20-1088,
David and Amy Carson, as parents and next friends of
0. C., and Troy and Angela Nelson, as parents and next
friends of A.N. and R.N., v. A. Pender Makin, in her
official capacity as Commissioner of the Maine
Department of Education, was sent via Next Day
Service to the U.S. Supreme Court, and via Next Day
Service to the following parties listed below, this 11th
day of March, 2021:
Michael Eugene Bindas
Institute for Justice
600 University Street
Suite 1730
Seattle, WA 98101
(206) 957-1300
mbindas@ij.org

Counsel for Petitioners
Sarah Ann Forster
Office of the Attorney General
6 State House Station
Augusta, ME 04333
(207) 626-8866
sarah.forster@maine.gov

Counsel for Respondent

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
' Washington, DC 20005

Michael H. McGinley
Counsel of Record
Dechert LLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
michael.mcginlet@dechert.com
Nicole Stelle Garnett
Richard W. Garnett IV
Notre Dame Law School
Religious Liberty Initiative
Eck Hall of Law
Notre Dame, Indiana 46556
(574) 631-6981

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 11, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
M1 Commission Expires
:-ebruary 14, 2023

